October 17, 2014

MEMORANDUM FOR:            KELLY M. SIGMON
                           VICE PRESIDENT, RETAIL AND CUSTOMER SERVICE
                           OPERATIONS

                           JAMES A. NEMEC
                           VICE PRESIDENT, CONSUMER AND INDUSTRY
                           AFFAIRS




FROM:                      Janet M. Sorensen
                           Deputy Assistant Inspector General
                            for Revenue and Resources

SUBJECT:                   Management Alert – Retail Customer Service Management
                           Alert (Report Number MS-MA-15-002)

This management alert presents concerns regarding Retail Customer Service
Point-of-Service (POS) surveys and survey information (Project Number
14RG019MS001). Issues regarding POS surveys and survey information came to our
attention during our review of Retail Customer Service (Project Number
14RG019MS000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Joe Wolski, director, Sales and
Marketing, or me at 703-248-2100.

cc: Corporate Audit and Response Management


Attachment
Retail Customer Service                                                        MS-MA-15-002



Introduction

The U.S. Postal Service has implemented an aggressive outreach program to
understand and measure the customer experience across all channels and to complete
extensive customer experience assessments. As part of the outreach program, the
Postal Service developed a survey to obtain critical customer feedback from retail
customers. This survey is provided to retail customers at the bottom of their sales
receipt with an Internet link and Quick Response Code the customer can use to provide
feedback on his or her experience. Sales and Services associates (SSA) highlight or
circle the survey link to encourage customers to provide feedback about their customer
service experience. Currently, the results of these surveys are reported by the survey
company to the Postal Service’s Consumer and Industry Affairs group.

Conclusion

During our observations of retail transactions, we noted that SSAs did not always inform
customers about the availability and location of the Point-of-Service (POS) survey link at
the end of their transaction receipt. As a result, customers are not encouraged to
complete the POS survey, limiting the information available about customer service and
satisfaction. Additionally, the Postal Service has not provided consistent guidance about
the use and communication of POS survey information to area, district, and unit level
offices. Consequently, unit management cannot always take appropriate action to
address customer service issues or recognize excellence.

Point-of-Service Guidance

During our observations of retail transactions, we noted that retail associates did not
always inform customers about the availability and location of the POS survey link at the
end of their transaction receipt. At the 60 randomly selected retail units we visited, we
noted that SSAs at 55 of them (92 percent) did not inform customers about or show
them the survey link on the receipt. In seven instances, SSAs tore the receipt above the
survey link before it finished printing and did not provide it to the customer. Although
SSAs have been instructed through stand-up talks to draw customers’ attention to the
POS survey link, our results indicated this instruction is rarely followed. As a result,
customers are not encouraged to complete the POS survey, limiting the information
available about customer service and satisfaction.

In addition, we noted during interviews with four Postal Service areas that POS survey
results are not always communicated to the retail units due to a lack of consistent
guidance from headquarters. Individual areas and districts vary the guidance they
provide on the roles and responsibilities of their district and unit management relating to
obtaining and analyzing POS survey information.


                                             1
Retail Customer Service                                                         MS-MA-15-002


For example, we found:

   One area used information from the POS survey to measure performance at the unit
    level, while another area left it to the discretion of the districts.

   One district created the POS reports at the district level and sent them to the units,
    while another district instructed units to pull the POS reports from the Postal
    Service’s Consumer and Industry Affairs website themselves.
As a result of these inconsistencies, unit management cannot always take appropriate
action to address customer service issues or recognize excellence. This alert brings to
your attention the need to immediately reinforce instructions to employees to inform
customers about, and provide, the POS survey link at the end of their transaction
receipts. It also identifies the need to provide guidance to areas and districts to
consistently communicate POS survey information.

Recommendations

We recommend the vice president, Retail and Customer Service Operations:

1. Reinforce the requirement that Sales and Services associates inform customers
   about the availability and location of the Point-of-Service survey link at the bottom of
   transaction receipts.

We recommend the vice president, Retail and Customer Service Operations, in
cooperation with the vice president, Consumer and Industry Affairs:

2. Provide guidance to the areas, districts, and units on using Point-of-Service survey
   information to increase Postal Service customer satisfaction.

Management’s Comments

Management agreed with the finding and recommendations.

Regarding recommendation 1, management stated they will reinforce the requirement
that sales and services associates inform customers about the availability and location
of the POS survey link at the bottom of transaction receipts by November 30, 2014.

Regarding recommendation 2, management stated they will provide guidance to the
areas, districts, and units on using POS survey information to increase the Postal
Service’s customer satisfaction by November 30, 2014.

See Appendix A for management’s comments, in their entirety.




                                             2
Retail Customer Service                                                 MS-MA-15-002



Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report.




                                         3
Retail Customer Service                                       MS-MA-15-002



                          Appendix A: Management’s Comments




                                          4
Retail Customer Service       MS-MA-15-002




                          5
